                                Federal Register / Vol. 70, No. 224 / Tuesday, November 22, 2005 / Notices                                               70623

     it to the agency. Thus, each firm                       had been submitted to OMB for review                  Administration (HRSA), Room 11C–26, 5600
     submitting a compliance extension                       and clearance under 44 U.S.C. 3507. An                Fishers Lane, Rockville, Maryland 20857 or
     request will need 5 hours of employee                   agency may not conduct or sponsor, and                e-mail clee@hrsa.gov. Requests should
                                                                                                                   contain the name, address, telephone
     time to complete the request. Given that                a person is not required to respond to,
                                                                                                                   number, and any business or professional
     56 businesses are expected to submit                    a collection of information unless it                 affiliation of the person desiring to make an
     written requests in year one, the total                 displays a currently valid OMB control                oral presentation. Groups having similar
     burden hours for year one are 280.                      number. OMB has now approved the                      interests are requested to combine their
        In year two, FDA expects about one-                  information collection and has assigned               comments and present them through a single
     half as many firms to request a labeling                OMB control number 0910–0571. The                     representative. The allocation of time may be
     compliance extension. So for year two,                  approval expires on January 31, 2006. A               adjusted to accommodate the level of
     28 firms are expected to file a request                 copy of the supporting statement for this             expressed interest. DVIC will notify each
     for an extension to the labeling                                                                              presenter by mail or telephone of their
                                                             information collection is available on
                                                                                                                   assigned presentation time. Persons who do
     compliance date. Again, assuming that                   the Internet at http://www.fda.gov/                   not file an advance request for a presentation,
     it will take 5 hours to complete each                   ohrms/dockets.                                        but desire to make an oral statement, may
     request, the total burden hours for year                  Dated: November 14, 2005.                           announce it at the time of the comment
     two will be 140.                                        Jeffrey Shuren,                                       period. These persons will be allocated time
       Dated: November 14, 2005.                                                                                   as it permits.
                                                             Assistant Commissioner for Policy.                       For Further Information Contact: Anyone
     Jeffrey Shuren,                                         [FR Doc. 05–23041 Filed 11–21–05; 8:45 am]            requiring information regarding the ACCV
     Assistant Commissioner for Policy.                      BILLING CODE 4160–01–S                                should contact Ms. Cheryl Lee, Principal
     [FR Doc. 05–23040 Filed 11–21–05; 8:45 am]                                                                    Staff Liaison, DVIC, HSB, HRSA, Room 11C–
     BILLING CODE 4160–01–S                                                                                        26, 5600 Fishers Lane, Rockville, MD 20857;
                                                             DEPARTMENT OF HEALTH AND                              telephone (301) 443–2124 or e-mail
                                                             HUMAN SERVICES                                        clee@hrsa.gov.
     DEPARTMENT OF HEALTH AND                                                                                        Dated: November 15, 2005.
     HUMAN SERVICES                                          Health Resources and Services                         Tina M. Cheatham,
                                                             Administration                                        Director, Division of Policy Review and
     Food and Drug Administration                                                                                  Coordination.
                                                             Advisory Commission on Childhood
     [Docket No. 2005N–0343]                                                                                       [FR Doc. 05–23042 Filed 11–21–05; 8:45 am]
                                                             Vaccines; Notice of Meeting
                                                                                                                   BILLING CODE 4165–15–P
     Agency Information Collection                             In accordance with section 10(a)(2) of
     Activities; Announcement of Office of                   the Federal Advisory Committee Act
     Management and Budget Approval;                         (Pub. L. 92–463), notice is hereby given              DEPARTMENT OF HEALTH AND
     Guidance for Requesting an Extension                    of the following meeting:                             HUMAN SERVICES
     to Use Existing Label Stock After the                     Name: Advisory Commission on
     Trans Fat Labeling Effective Date of                                                                          Office of Inspector General
                                                             Childhood Vaccines (ACCV).
     January 1, 2006                                           Date and Time: December 12, 2005, 9
                                                                                                                   Publication of OIG Special Advisory
                                                             a.m.—5 p.m., EST.
     AGENCY:    Food and Drug Administration,                  Place: Audio Conference Call and                    Bulletin on Patient Assistance
     HHS.                                                    Parklawn Building, Conference Rooms G & H,            Programs for Medicare Part D
     ACTION:   Notice.                                       5600 Fishers Lane, Rockville, MD 20857.               Enrollees
                                                               The ACCV will meet on Monday,
     SUMMARY: The Food and Drug                              December 12, from 9 a.m. to 5 p.m. The
                                                                                                                   AGENCY: Office of Inspector General
     Administration (FDA) is announcing                      public can join the meeting in person at the          (OIG), HHS.
     that a collection of information entitled               address listed above or by audio conference           ACTION: Notice.
     ‘‘Guidance for Requesting an Extension                  call by dialing 1–800–369–6048 on December
                                                             12 and providing the following information:           SUMMARY: OIG periodically develops
     to Use Existing Label Stock after the
                                                               Leader’s Name: Dr. Geoffrey Evans.                  and issues guidance, including Special
     Trans Fat Labeling Effective Date of
                                                               Password: ACCV.                                     Advisory Bulletins, to alert and inform
     January 1, 2006’’ has been approved by
                                                               Agenda: The agenda items for the                    the health care industry about potential
     the Office of Management and Budget                     December meeting will include, but are not            problems or areas of special interest.
     (OMB) under the Paperwork Reduction                     limited to: A summary of the U.S. Court of            This Federal Register notice sets forth
     Act of 1995 (the PRA). Elsewhere in this                Federal Claims’ 18th Judicial Conference; a           the recently issued OIG Special
     issue of the Federal Register, FDA is                   report from the ACCV Workgroup looking at
                                                                                                                   Advisory Bulletin addressing patient
     publishing a notice announcing an                       proposed guidelines for future changes to the
                                                             Vaccine Injury Table; and updates from the            assistance programs for Medicare Part D
     opportunity for public comment on this
                                                             Division of Vaccine Injury Compensation               enrollees.
     collection of information. Since this
     collection received emergency approval                  (DVIC), Department of Justice, National               FOR FURTHER INFORMATION CONTACT:
     that expires on January 1, 2006, FDA is                 Vaccine Program Office, Immunization Safety           Darlene M. Hampton, Office of Counsel
                                                             Office (Centers for Disease Control and               to the Inspector General, (202) 619–
     following the normal PRA clearance                      Prevention), National Institute of Allergy and
     procedures by issuing that notice.                                                                            0335.
                                                             Infectious Diseases (National Institutes of
     FOR FURTHER INFORMATION CONTACT:                        Health), and Center for Biologics and                 SUPPLEMENTARY INFORMATION:
     Peggy Robbins, Office of Management                     Evaluation Research (Food and Drug                    Special Advisory Bulletin: Patient
     Programs (HFA–250), Food and Drug                       Administration). Agenda items are subject to
                                                             change as priorities dictate.
                                                                                                                   Assistance Programs for Medicare Part
     Administration, 5600 Fishers Lane,                                                                            D Enrollees (November 2005)
     Rockville, MD 20857, 301–827–1223.                        Public Comments: Persons interested in
                                                             providing an oral presentation should submit          I. Introduction
     SUPPLEMENTARY INFORMATION: In the                       a written request, along with a copy of their
     Federal Register of September 1, 2005                   presentation to: Ms. Cheryl Lee, Principal               Patient assistance programs (PAPs)
     (70 FR 52108), the agency announced                     Staff Liaison, DVIC, Healthcare Systems               have long provided important safety net
     that the proposed information collection                Bureau (HSB), Health Resources and Services           assistance to patients of limited means


VerDate Aug<31>2005   18:49 Nov 21, 2005   Jkt 208001   PO 00000   Frm 00046   Fmt 4703   Sfmt 4703   E:\FR\FM\22NON1.SGM   22NON1
     70624                      Federal Register / Vol. 70, No. 224 / Tuesday, November 22, 2005 / Notices

     who do not have insurance coverage for                  anti-kickback statute will be implicated                assessment of fraud and abuse is
     drugs, typically serving patients with                  if pharmaceutical manufacturer PAPs 3                   necessarily speculative, this Bulletin
     chronic illnesses and high drug costs.                  continue to offer assistance to                         cannot, and is not intended to, be an
     PAPs are structured and operated in                     financially needy Medicare beneficiaries                exhaustive discussion of relevant risks
     many different ways. PAPs may offer                     who enroll in Part D by subsidizing                     or beneficial practices.
     cash subsidies, free or reduced price                   their cost-sharing obligations for                         At the outset, it is important to note
     drugs, or both. Some PAPs offer                         covered Part D drugs. For the reasons set               the following:
     assistance directly to patients, while                  forth below and consistent with extant                     • PAPs need not disenroll all
     others replenish drugs furnished by                     OIG guidance, we conclude that                          Medicare beneficiaries from their
     pharmacies, clinics, hospitals, and other               pharmaceutical manufacturer PAPs that                   existing PAPs to be compliant with the
     entities to eligible patients whose drugs               subsidize Part D cost-sharing amounts                   fraud and abuse laws. Enrollment in
     are not covered by an insurance                         present heightened risks under the anti-                Part D is voluntary; therefore, existing
     program. Some PAPs are affiliated with                  kickback statute. However, in the                       PAPs may continue to provide free or
     particular pharmaceutical                               circumstances described in this                         reduced price outpatient prescription
     manufacturers; others are operated by                   Bulletin, cost-sharing subsidies                        drugs to Medicare beneficiaries who
     independent charitable organizations                    provided by bona fide, independent                      have not yet enrolled in Part D. The
     (such as, for example, patient advocacy                 charities unaffiliated with                             Centers for Medicare & Medicaid
     and support organizations) without                      pharmaceutical manufacturers should                     Services (CMS) anticipates instituting
     regard to any specific donor or industry                not raise anti-kickback concerns, even if               procedures that will help PAPs
     interests.                                              the charities receive manufacturer                      determine if PAP clients have enrolled
        Many pharmaceutical manufacturers                    contributions. In addition, we believe                  in Part D.
     have historically sponsored PAPs that                   other arrangements described in this                       • Occasional, inadvertent cost-
     assist patients whose outpatient                        Bulletin, if properly structured, may                   sharing subsidies provided by a
     prescription drugs are not covered by an                pose reduced risk. Thus, we believe                     pharmaceutical manufacturer PAP to a
     insurance program (including some                       lawful avenues exist for pharmaceutical                 Part D enrollee should not be
     Medicare beneficiaries), in obtaining the               manufacturers and others to help ensure                 problematic under the anti-kickback
     manufacturer’s products for free or at                  that all Part D beneficiaries can afford                statute (e.g., where, despite due
     greatly reduced cost. Beginning on                      medically necessary drugs.                              diligence, a pharmaceutical
     January 1, 2006, Medicare Part D will                      Given the importance of ensuring                     manufacturer PAP does not know and
     offer Medicare beneficiaries who elect to               continued access to drugs for                           should not have known that a
     enroll broad coverage for outpatient                    beneficiaries of limited means and the                  beneficiary has enrolled in Medicare
     prescription drugs. Accordingly,                        expedited time frame for                                Part D).
     Medicare beneficiaries who enroll in                    implementation of the Part D benefit, we                   • Nothing in the Part D program or in
     Part D will no longer qualify under                     are issuing this Special Advisory                       any OIG laws or regulations prevents
     traditional PAP eligibility criteria. Part              Bulletin to identify potentially abusive                pharmaceutical manufacturers or others
     D enrollees will incur cost-sharing                     PAP structures, as well as methods of                   from providing assistance (e.g., through
     obligations (including deductibles and                  providing assistance that mitigate or                   cash subsidies or free drugs) to
     copayments), although many low-                         vitiate the potential for fraud and abuse.              uninsured patients. Nothing in this
     income beneficiaries will qualify for                   This Special Advisory Bulletin draws                    Bulletin impacts programs that assist
     subsidies that will reduce or eliminate                 on the government’s prior fraud and                     uninsured patients.
     their financial obligations.1                           abuse guidance and enforcement                             • Nothing in this guidance should be
     Pharmaceutical manufacturers have                       experience. However, because the Part D                 construed as preventing pharmacies
     expressed interest in continuing to                     benefit has not yet begun, and any                      from waiving cost-sharing amounts
     assist Medicare Part D enrollees of                                                                             owed by a Medicare beneficiary on the
     limited means who do not qualify for                    sharing or premium amounts under Part D raise           basis of a good faith, individualized
     the low-income subsidy.                                 different issues and may require a different
                                                                                                                     assessment of the patient’s financial
        OIG is mindful of the importance of                  analysis. While this Bulletin may provide some
                                                             useful guidance for other kinds of PAP                  need (or failure of reasonable collection
     ensuring that financially needy
                                                             arrangements, such PAPs are not specifically            efforts), so long as the waiver is neither
     beneficiaries who enroll in Part D                      considered here.                                        routine, nor advertised. Financial need-
     receive medically necessary drugs, and                     3 For purposes of this Special Advisory Bulletin,
                                                                                                                     based waivers that meet these criteria
     OIG supports efforts of charitable                      a pharmaceutical manufacturer PAP includes any
                                                             PAP that is directly or indirectly operated or          have long been permitted.4 However, a
     organizations and others to assist
                                                             controlled in any manner by a pharmaceutical            pharmacy has not waived a cost-sharing
     financially needy beneficiaries, as long                manufacturer or its affiliates (including, without      amount if the amount has been paid to
     as the assistance is provided in a                      limitation, any employee, agent, officer shareholder,   the pharmacy, in cash or in kind, by a
     manner that does not run afoul of the                   or contractor (including, without limitation, any
     Federal anti-kickback statute or other                  wholesaler, distributor, or pharmacy benefits
                                                             manager)). Moreover, for purposes of an anti-             4 See, e.g., section 1128A(i)(6)(A) of the Act; OIG
     laws.2 We have been asked whether the                   kickback analysis, we would not consider a              Special Advisory Bulletin on Offering Gifts and
                                                             charitable foundation (or similar entity) formed,       Other Inducements to Beneficiaries, August 2002,
       1 See 42 CFR 423.782.                                 funded or controlled by a manufacturer or any of        http:oig.hhs.gov/fraud/docs/alertsandbulletins/
       2 This Bulletin focuses on the application of the     its affiliates (including, without limitation, any      SABGiftsandInducements.pdf. The Medicare
     Federal anti-kickback statute. Other potential risk     employee, agent, officer, shareholder, or contractor    Prescription Drug, Improvement, and
     areas, including, for example, potential liability      (including, without limitation, any wholesaler,         Modernization Act of 2003 (MMA) included a safe
     under the False Claims Act, 31 U.S.C. 3729–33, or       distributor, or pharmacy benefits manager)) to be a     harbor specifically incorporating these criteria for
     other Federal or State laws, are not addressed here.    bona fide, independent charity, because                 waivers of cost-sharing amounts for Part D drugs.
     Moreover, this Bulletin focuses on arrangements         interposition of the entity would not sever the         Additionally, the safe harbor protects cost-sharing
     that involve pharmaceutical manufacturers directly      nexus between the patient subsidies and the             waivers offered to individuals who qualify for the
     or indirectly subsidizing Part D cost-sharing           manufacturer. Indeed, in most cases, the foundation     low income subsidy, even if the waivers are routine
     amounts. Programs that subsidize Part D premium         would receive all of its funding from the               and do not follow an individualized determination
     amounts pose risks under the anti-kickback statute      pharmaceutical manufacturer (or its affiliates) and     of financial need, provided they are not advertised.
     that are not addressed here. Similarly, PAPs            would provide subsidies only for the                    See Section 1860D–42 of MMA, codified at 42
     established by health plans that subsidize cost         manufacturer’s products.                                U.S.C. 1320a–7b(b)(3)(G).



VerDate Aug<31>2005   17:22 Nov 21, 2005   Jkt 208001   PO 00000   Frm 00047   Fmt 4703   Sfmt 4703   E:\FR\FM\22NON1.SGM    22NON1
                                Federal Register / Vol. 70, No. 224 / Tuesday, November 22, 2005 / Notices                                                       70625

     third party (including, without                            This section addresses in turn:                       Part D drugs would implicate the anti-
     limitation, a PAP).                                     pharmaceutical manufacturer PAPs,                        kickback statute and pose a substantial
                                                             independent charity PAPs,                                risk of program and patient fraud and
     II. The Federal Anti-Kickback Statute
                                                             manufacturer PAPs that operate                           abuse.11 Simply put, the subsidies
        The Federal anti-kickback statute,                   ‘‘outside of Part D’’; ‘‘coalition model’’               would be squarely prohibited by the
     section 1128B(b) of the Social Security                 PAPs, and bulk replacement programs.                     statute, because the manufacturer would
     Act (the Act),5 makes it a criminal                                                                              be giving something of value (i.e., the
     offense knowingly and willfully to offer,               A. Pharmaceutical Manufacturer PAPs
                                                                                                                      subsidy) to beneficiaries to use its
     pay, solicit, or receive any remuneration                  Analytically, pharmaceutical                          product. Where a manufacturer PAP
     to induce or reward the referral or                     manufacturer PAPs raise two main                         offers subsidies tied to the use of the
     generation of business reimbursable by                  issues in connection with the Part D                     manufacturer’s products (often
     any Federal health care program,                        program: (i) Whether subsidies they                      expensive drugs used by patients with
     including Medicare and Medicaid.                        provide can count toward a Part D                        chronic illnesses), the subsidies present
     Where remuneration is paid                              enrollee’s true out-of-pocket costs                      all of the usual risks of fraud and abuse
     purposefully to induce or reward                        (known as the TrOOP); and (ii) whether                   associated with kickbacks, including
     referrals of items or services payable by               the subsidies implicate the Federal anti-                steering beneficiaries to particular
     a Federal health care program, the anti-                kickback statute.7                                       drugs; increasing costs to Medicare;
     kickback statute is violated. By its                       As to the first issue, the Part D                     providing a financial advantage over
     terms, the statute ascribes criminal                    regulations make clear that beneficiaries                competing drugs; and reducing
     liability to parties on both sides of an                may count toward their TrOOP                             beneficiaries= incentives to locate and
     impermissible ‘‘kickback’’ transaction.                 assistance received from any source                      use less expensive, equally effective
     For purposes of the anti-kickback                       other than group health plans, other                     drugs.
     statute, ‘‘remuneration’’ includes the                  insurers and government funded health
                                                                                                                         It is impossible to predict with
     transfer of anything of value, directly or              programs, and similar third party
                                                                                                                      certainty the way in which abuse may
     indirectly, overtly or covertly, in cash or             payment arrangements.8 The preamble
                                                                                                                      occur in a new benefit program that is
     in kind. The statute has been interpreted               to the Part D regulations explains that
                                                                                                                      not yet operational. The following are
     to cover any arrangement where one                      cost-sharing assistance furnished by a
                                                                                                                      illustrative examples of some types of
     purpose of the remuneration was to                      PAP, including a manufacturer PAP,
                                                                                                                      abuse that may occur:
     obtain money for the referral of services               will count toward a beneficiary’s TrOOP
                                                                                                                         • Increased costs to the program. We
     or to induce further referrals. Violation               expenditures, even if the PAP does not
                                                                                                                      are concerned that a manufacturer might
     of the statute constitutes a felony                     comply with the fraud and abuse laws.9
                                                                                                                      use beneficiary cost-sharing subsidies,
     punishable by a maximum fine of                         This approach relieves beneficiaries of
                                                             the financial risk of accepting assistance               which help beneficiaries meet their
     $25,000, imprisonment up to five years,                                                                          TrOOP requirement, to increase the
     or both. OIG may also initiate                          from an entity that may be improperly
                                                             structured or operated.                                  number of beneficiaries using the
     administrative proceedings to exclude a                                                                          manufacturer’s product who reach the
                                                                As to the second issue, the core
     person from Federal health care
                                                             question is whether the anti-kickback
     programs or to impose civil money                                                                                from pharmaceutical manufacturer PAPs to
                                                             statute would be implicated if a
     penalties for kickback violations under                                                                          subsidize Part B cost-sharing amounts). We note
                                                             manufacturer of a drug covered under                     that the cost and utilization management features of
     sections 1128(b)(7) and 1128A(a)(7) of
                                                             Part D were to subsidize cost-sharing                    the Part D program, while important, do not
     the Act.6                                                                                                        sufficiently mitigate the risks.
        A determination regarding whether a                  amounts (directly or indirectly through
                                                                                                                         11 Some in the industry have asserted that cost-

     particular arrangement violates the anti-               a PAP) incurred by Part D beneficiaries
                                                                                                                      sharing subsidies for Part D drugs differ from cost-
                                                             for the manufacturer’s product.
     kickback statute requires a case-by-case                                                                         sharing subsidies for Part B drugs so long as the
                                                             Consistent with our prior guidance                       subsidies are given to patients who are in a Part D
     evaluation of all of the relevant facts
                                                             addressing manufacturer cost-sharing                     ‘‘coverage gap’’ (i.e., a benefit period during which
     and circumstances, including the intent                                                                          the beneficiary pays 100% of the cost of the drugs).
                                                             subsidies in the context of Part B
     of the parties. For PAPs, the nature,                                                                            To support their position, they contend either that
                                                             drugs,10 we believe such subsidies for
     structure, sponsorship, and funding of                                                                           beneficiaries in the coverage gap are functionally
     the particular PAP are necessarily                                                                               ‘‘uninsured’’ or that the situation is comparable to
                                                                7 In some cases, a subsidy for Part D cost-sharing    providing free drugs to financially needy
     relevant to the analysis.                               obligations provided by a pharmaceutical                 beneficiaries so long as no Federal health care
                                                             manufacturer may also implicate the prohibition on       program is billed for all or part of the drug, a
     III. Patient Assistance Programs                        offering inducements to beneficiaries, as set forth in   practice we previously permitted in the context of
        As described more fully below, cost-                 section 1128A(a)(5) of the Act, if the subsidy is        subsidies for Part B drugs. See OIG Advisory
                                                             likely to influence the beneficiary’s selection of a     Opinion Nos. 02–13 and 03–3. Under Part D, a
     sharing subsidies provided by                           particular provider, practitioner, or supplier, such     ‘‘coverage gap’’ is a period of insurance coverage.
     pharmaceutical manufacturer PAPs pose                   as a physician or pharmacy. We have interpreted          See CMS Frequently Asked Question ID 4855,
     a heightened risk of fraud and abuse                    ‘‘provider, practitioner, or supplier’’ to exclude       http://questions.cms.hhs.gov/cgi-bin/cmshhs.cfg/
     under the Federal anti-kickback statute.                pharmaceutical manufacturers unless they also own        php/enduser/std_adp.php?p_faqid=4855 (regarding
                                                             or operate pharmacies, pharmaceutical benefits           prescription drug benefit coordination of benefits
     However, there are non-abusive                          management companies, or other entities that file        and TrOOP). During the coverage gap, beneficiaries
     alternatives available. In particular, as               claims for payment under the Medicare or Medicaid        remain enrolled in their Part D plans and have a
     discussed below, pharmaceutical                         programs. See Special Advisory Bulletin on               continuing obligation to pay Part D premiums; Part
     manufacturers can donate to bona fide                   Offering Gifts and Other Inducements to                  D plans continue to receive the monthly per-
                                                             Beneficiaries, supra note 4.                             enrollee direct subsidy from the Medicare program.
     independent charity PAPs, provided                         8 See 42 CFR 423.100; 42 CFR 423.464; 70 FR
                                                                                                                      Moreover, subsidies during the coverage gap are not
     appropriate safeguards exist. Moreover,                 4194, 4239 (January 28, 2005). We note that CMS          like furnishing free drugs where no Federal health
     this Bulletin discusses several other                   is the proper agency to address questions about the      care program is billed. Sufficient spending during
     alternatives that may pose a reduced                    mechanics of calculating TrOOP. In certain               the coverage gap qualifies the beneficiary to reach
                                                             circumstances, knowing improper TrOOP                    the catastrophic coverage portion of the Part D
     risk of fraud and abuse.                                calculations may give rise to liability under the        benefit, at which point the Medicare program
                                                             False Claims Act, 31 U.S.C. 3729–33.                     resumes payment for most of the costs of the
       5 42 U.S.C. 1320a–7b(b).                                 9 See 70 FR 4194 at 4239.
                                                                                                                      beneficiary’s drugs. In this regard, the different
       6 42 U.S.C. 1320a–7(b)(7); 42 U.S.C. 1320a–              10 See, e.g., OIG Advisory Opinion Nos. 02–13         structures of the Part B and Part D benefits are
     7a(a)(7).                                               and 03–3 (unfavorable opinions involving proposals       crucial to the analysis.



VerDate Aug<31>2005   17:22 Nov 21, 2005   Jkt 208001   PO 00000   Frm 00048   Fmt 4703   Sfmt 4703   E:\FR\FM\22NON1.SGM     22NON1
     70626                       Federal Register / Vol. 70, No. 224 / Tuesday, November 22, 2005 / Notices

     catastrophic benefit in any given                           These risks are necessarily                             Under a properly structured program,
     coverage year and to hasten the point                    illustrative, not exhaustive, of the                    donations from a pharmaceutical
     during the coverage year at which                        potential risks presented by                            manufacturer to an independent, bona
     beneficiaries reach the catastrophic                     pharmaceutical manufacturer PAPs that                   fide charity that provides cost-sharing
     benefit. This is of particular import                    subsidize Part D cost-sharing amounts.                  subsidies for Part D drugs should raise
     because Medicare will make cost-based                       Cost-sharing subsidies offered by a                  few, if any, anti-kickback statute
     payments during the catastrophic                         pharmaceutical manufacturer PAP to                      concerns, so long as:
     coverage benefit.12 We know from                         the dispensing supplier differ in two                      (i) Neither the pharmaceutical
     experience that cost-based                               important respects from a provider’s or                 manufacturer nor any affiliate of the
     reimbursement is inherently prone to                     supplier’s unadvertised, non-routine                    manufacturer (including, without
     abuse, including by vendors that sell                    waiver of cost-sharing amounts based on                 limitation, any employee, agent, officer,
     products reimbursed on a cost basis.                     a patient’s financial need, which has                   shareholder, or contractor (including,
     Similarly, we are concerned about the                    long been permitted. First, the subsidies               without limitation, any wholesaler,
     use of cost-sharing subsidies to shield                  result in the dispensing supplier                       distributor, or pharmacy benefits
     beneficiaries from the economic effects                  receiving full payment for the product                  manager)) exerts any direct or indirect
     of drug pricing, thus eliminating a                      and avoiding the risk of non-collection,                influence or control over the charity or
     market safeguard against inflated prices.                thus providing the supplier with an                     the subsidy program;
     Inflated prices could have a ‘‘spillover’’               economic incentive to favor the                            (ii) The charity awards assistance in a
     effect on the size of direct subsidies,                  subsidized product and a disincentive                   truly independent manner that severs
     reinsurance payments, and risk corridor                  to recommend a lower-cost alternative,                  any link between the pharmaceutical
     payments paid by Medicare to Part D                      such as a generic. In addition, the                     manufacturer’s funding and the
     plans in future years,13 potentially                     availability of PAP assistance is                       beneficiary (i.e., the assistance provided
     resulting in higher costs to the Medicare                typically advertised and may influence                  to the beneficiary cannot be attributed to
     program.                                                 a beneficiary’s choice of product                       the donating pharmaceutical
                                                              (through the prescribing physician                      manufacturer);
        • Beneficiary steering and anti-                                                                                 (iii) The charity awards assistance
     competitive effects. Subsidies provided                  acting on behalf of the beneficiary).
                                                                                                                      without regard to the pharmaceutical
     by traditional pharmaceutical                            Moreover, once a beneficiary is enrolled
                                                                                                                      manufacturer’s interests and without
     manufacturer PAPs have the practical                     in a pharmaceutical manufacturer PAP,
                                                                                                                      regard to the beneficiary’s choice of
     effect of locking beneficiaries into the                 the beneficiary is effectively locked into
                                                                                                                      product, provider, practitioner,
     manufacturer’s product, even if there                    using the pharmaceutical
                                                                                                                      supplier, or Part D drug plan;
     are other equally effective, less costly                 manufacturer’s product, since the                          (iv) The charity provides assistance
     alternatives (and even if the patient’s                  beneficiary risks losing financial                      based upon a reasonable, verifiable, and
     physician would otherwise prescribe                      assistance if he or she switches                        uniform measure of financial need that
     one of these alternatives). Subsidizing                  products, even if an equally effective,                 is applied in a consistent manner; and 15
     Medicare Part D cost-sharing amounts                     but less expensive, product would be in                    (v) The pharmaceutical manufacturer
     will have this same steering effect.                     his or her best medical interests.                      does not solicit or receive data from the
     Moreover, as we have previously noted                       A definitive conclusion regarding                    charity that would facilitate the
     in the Part B context, cost-sharing                      whether a particular manufacturer PAP                   manufacturer in correlating the amount
     subsidies can be very profitable for                     violates the anti-kickback statute would                or frequency of its donations with the
     manufacturers, providing additional                      require a case-by-case analysis of all of               number of subsidized prescriptions for
     incentives for abuse. So long as the                     the relevant facts and circumstances,                   its products.16
     manufacturer’s sales price for the                       including the intent of the parties.
     product exceeds its marginal variable                    However, for the reasons noted above,                   cost-sharing obligations, both for purposes of
     costs plus the amount of the cost-                       we believe that pharmaceutical                          calculating TrOOP and for purposes of determining
                                                              manufacturer PAPs that subsidize Part D                 the amount of in-kind drug that equals the Part D
     sharing assistance, the manufacturer                                                                             cost-sharing amount owed.
     makes a profit. These profits can be                     cost-sharing amounts raise substantial                     15 We recognize that what constitutes an
     considerable, especially for expensive                   concerns under the anti-kickback                        appropriate determination of financial need may
     drugs for chronic conditions. We are                     statute.                                                vary depending on individual patient
     concerned that pharmaceutical                                                                                    circumstances. We believe that independent charity
                                                              B. Independent Charity PAPs                             PAPs should have flexibility to consider relevant
     manufacturers may seek improperly to                                                                             variables beyond income. For example, PAPs may
     maximize these profits by creating sham                     Long-standing OIG guidance makes                     choose to consider the local cost of living; a
     ‘‘independent’’ charities to operate                     clear that pharmaceutical manufacturers                 patient’s assets and expenses; a patient’s family
     PAPs; by colluding with independent                      can effectively contribute to the                       size; and the scope and extent of a patient’s medical
                                                              pharmaceutical safety net by making                     bills.
     charity programs to ensure that the                                                                                 16 We have previously approved a bona fide
     manufacturer’s contributions only or                     cash donations to independent, bona
                                                                                                                      independent charity PAP arrangement that
     primarily benefit patients using its                     fide charitable assistance programs.14                  included only limited reporting of aggregate data to
     products (discussed in more detail                                                                               donors in the form of monthly or less frequent
                                                                14 In-kind donations of drugs to independent          reports containing aggregate data about the number
     below); or by manipulating financial                     charity PAPs pose additional risks not yet directly     of all applicants for assistance in a disease category
     need or other eligibility criteria to                    addressed in prior OIG guidance, and we have            and the number of patients qualifying for assistance
     maximize the number of beneficiaries                     insufficient experience with them to offer detailed     in that disease category. See OIG Advisory Opinion
     qualifying for cost-sharing subsidies.                   guidance here. While in-kind donations have the         No. 02–1. No individual patient information may be
                                                              potential benefit of increasing the value of            conveyed to donors. Moreover, neither patients nor
                                                              donations (because marginal costs of drugs are          donors may be informed of the donation made to
       12 See 42 CFR 423.329. For purposes of
                                                              generally low), they also have the effect of creating   the PAP by others, although, as required by Internal
     calculating payments under catastrophic coverage,        a direct correlation between the donation and use       Revenue Service regulations, the PAP’s annual
     the cost of a beneficiary’s drug is based in part on     of a particular donor’s product, thereby weakening      report and a list of donors may be publicly
     the plan’s negotiated price (i.e., a price that is set   important safeguards of an independent charity          available. See OIG Advisory Opinion No. 04–15.
     by the plan based on negotiations with                   PAP arrangement. Moreover, there would appear to        Reporting of data that is not in the aggregate or that
     pharmaceutical manufacturers and pharmacies).            be difficult accounting and valuation issues raised     is patient specific would be problematic, as would
       13 See 42 CFR 423.329; 42 CFR 423.336.                 by the use of in-kind product to subsidize Part D       reporting of any data, whether or not in the



VerDate Aug<31>2005    17:22 Nov 21, 2005   Jkt 208001   PO 00000   Frm 00049   Fmt 4703   Sfmt 4703   E:\FR\FM\22NON1.SGM     22NON1
                                Federal Register / Vol. 70, No. 224 / Tuesday, November 22, 2005 / Notices                                              70627

        Simply put, the independent charity                   C. PAPs Operating Outside Part D                        subsidized drugs to permit the
     PAP must not function as a conduit for                      CMS has issued guidance stating that                 Government to verify the provision of
     payments by the pharmaceutical                           PAPs may elect to provide free drugs to                 drugs outside the Part D benefit;
     manufacturer to patients and must not                    financially needy Medicare Part D                          (v) Assistance is awarded based on
     impermissibly influence beneficiaries’                   enrollees outside the Part D benefit.20 In              reasonable, uniform, and consistent
     drug choices.17                                          these circumstances, the beneficiary                    measures of financial need and without
        We recognize that some bona fide                      obtains drugs without using his or her                  regard to the providers, practitioners, or
     independent charities reasonably focus                   Part D insurance benefit. Beginning                     suppliers used by the patient or the Part
     their efforts on patients with particular                when a beneficiary’s assistance under a                 D plan in which the patient is enrolled;
     diseases (such as cancer or diabetes) and                PAP became effective, no claims for                     and
     that some of these charities permit                      payment for any covered outpatient
     donors to earmark their contributions                                                                               (vi) The arrangement complies with
                                                              prescription drug provided outside of                   any then-existing guidance from CMS.
     generally for support of patients with a                 the Part D benefit may be filed with a
     specific disease. In general, the fact that              Part D plan or the beneficiary, and the                    In addition, to promote quality of
     a pharmaceutical manufacturer’s                          assistance must not count toward the                    care, we believe it would be important
     donations are earmarked for one or more                  beneficiary’s TrOOP or total Part D                     for PAPs that provide free drugs outside
     broad disease categories should not                      spending for any purpose. For the                       the Part D benefit to coordinate
     significantly raise the risk of abuse.                   reasons noted in connection with                        effectively with Part D plans so that the
     However, we are concerned that, in                       pharmaceutical manufacturer PAPs                        plans can undertake appropriate drug
     some cases, charities may artificially                   discussed above, PAPs that provide                      utilization review and medication
     define their disease categories so                       assistance outside the Part D benefit                   therapy management program activities.
     narrowly that the earmarking effectively                 only during the coverage gap (i.e.,
     results in the subsidization of one (or a                                                                        D. ‘‘Coalition Model’’ PAPs
                                                              ‘‘wrapping around’’ the Part D benefit)
     very few) of donor’s particular products.                pose a heightened risk of abuse.                          We are aware of nascent efforts by
     For example, we would be concerned if                    However, while it is difficult to assess                some in the industry to develop
     disease categories were defined by                       the application of the fraud and abuse                  arrangements through which multiple
     reference to specific symptoms, severity                 laws to PAPs that operate outside Part                  pharmaceutical manufacturers would
     of symptoms, or the method of                            D absent a specific set of facts, it would              join together to offer financially needy
     administration of drugs, rather than by                  appear that PAPs that furnish free
     diagnoses or broadly recognized                                                                                  Part D enrollees a card or similar vehicle
                                                              outpatient prescription drugs entirely                  that would entitle the enrollees to
     illnesses or diseases. This type of                      outside the Part D benefit pose a
     arrangement would present an elevated                                                                            subsidies of their cost-sharing
                                                              reduced risk under the anti-kickback                    obligations for the manufacturers’
     risk of fraud and abuse because of the                   statute, provided that:
     increased likelihood that the PAP would                                                                          products, typically in the form of
                                                                 (i) The PAP includes safeguards that                 discounts off the negotiated price
     function as an improper conduit for                      ensure that Part D plans are notified that
     manufacturers to provide funds to                                                                                otherwise available to the enrollee
                                                              the drug is being provided outside the                  under his or her Part D plan. It is
     patients using their specific drugs. To                  Part D benefit so that no payment is
     avoid this risk, pharmaceutical                                                                                  premature to offer definitive guidance
                                                              made for the subsidized drug by any                     on these evolving programs. Although
     manufacturers should not influence,                      Part D plan and no part of the costs of
     directly or indirectly, the identification                                                                       these programs would operate so that
                                                              the subsidized drug is counted toward                   the manufacturers effectively
     of disease or illness categories,18 and                  any beneficiary’s TrOOP;
     pharmaceutical manufacturers should                                                                              underwrite only the discounts on their
                                                                 (ii) The PAP provides assistance for                 own products, we observe that the risk
     limit their earmarked donations to PAPs                  the whole Part D coverage year (or the
     that define categories in accordance                                                                             of an illegal inducement potentially may
                                                              portion of the coverage year remaining                  be reduced if: (i) The program contains
     with widely recognized clinical                          after the beneficiary first begins
     standards and in a manner that covers                                                                            features that adequately safeguard
                                                              receiving the PAP assistance);21                        against incentives for card holders to
     a broad spectrum of available                               (iii) The PAP assistance remains
     products.19                                                                                                      favor one drug product (or any one
                                                              available even if the beneficiary’s use of
                                                                                                                      supplier, provider, practitioner, or Part
                                                              the subsidized drug is periodic during
     aggregate, related to the identity, amount, or nature                                                            D plan) over another; (ii) the program
                                                              the coverage year;
     of subsidized drugs.                                                                                             includes a large number of
                                                                 (iv) The PAP maintains accurate and
        17 For further guidance on establishing compliant                                                             manufacturers, including competing
     independent charity PAPs, see OIG Advisory               contemporaneous records of the
                                                                                                                      manufacturers and manufacturers of
     Opinion Nos. 04–15, 02–1, 98–17, and 97–1
     (favorable opinions issued to bona fide,                 circumstances, including the intent of the parties.
                                                                                                                      both branded and generic products,
     independent charities that accept industry funding).     We note that it would be important for the PAP          sufficient to sever any nexus between
        18 Nothing in this Bulletin should be construed as    program to cover additional products or                 the subsidy and a beneficiary’s choice of
     preventing a charity from obtaining educational          manufacturers as they become available.                 drug; and (iii) each participating
     materials from donors that the donors generally             20 See CMS Frequently Asked Question ID 6153,
                                                                                                                      pharmaceutical manufacturer offers
     make available to practitioners or the general public    http://questions.cms.hhs.gov/cgi-bin/cmshhs.cfg/
     (e.g., clinical information about drug products).        php/enduser/std_adp.php?p_faqid=6153 (regarding         subsidies for all of its products that are
        19 We recognize that, in rare circumstances, there    PAPs providing assistance with Part D drug costs        covered by any Part D plan formulary.
     may only be one drug covered by Part D for the           to Part D enrollees outside of the Part D benefit and   Other safeguards may also be needed to
     diseases in a particular category or only one            without counting towards TrOOP).                        reduce the risk of an improper
     pharmaceutical manufacturer (including its                  21 We note that our position that PAPs operating

     affiliates) that makes all of the Part D covered drugs   outside the Part D benefit should provide assistance
                                                                                                                      inducement. Moreover, a program under
     for the diseases in a particular category. In these      for the remainder of the coverage year is consistent    which Part D enrollees pay a portion of
     unusual circumstances, the fact that a disease           with our observation in several advisory opinions       their drug costs out-of-pocket would
     category only includes one drug or manufacturer          that manufacturers ‘‘may provide free drugs to          tend to reduce the risk of abuse by
     would not, standing alone, be determinative of an        financially needy beneficiaries, so long as no
     anti-kickback statute violation. Such a                  Federal health care program is billed for all or part
                                                                                                                      preserving the beneficiary’s incentive to
     determination could only be made on a case-by-case       of the drugs.’’ OIG Advisory Opinion Nos. 02–13         locate and purchase equally effective,
     basis after examining all of the applicable facts and    and 03–3.                                               lower cost drugs.


VerDate Aug<31>2005   17:22 Nov 21, 2005   Jkt 208001   PO 00000   Frm 00050   Fmt 4703   Sfmt 4703   E:\FR\FM\22NON1.SGM    22NON1
     70628                      Federal Register / Vol. 70, No. 224 / Tuesday, November 22, 2005 / Notices

     IV. Bulk Replacement Models                                With respect to pharmaceutical                     they will not run afoul of the fraud and
                                                             manufacturer PAPs that are in existence               abuse laws.22 OIG advisory opinions are
        Bulk replacement’’ or similar                        prior to the date of publication of this              written opinions that are legally binding
     programs, pursuant to which                             Special Advisory Bulletin, during the                 on OIG, the Department, and the party
     pharmaceutical manufacturers (or their                  initial calendar year of the Part D                   that requests the opinion. To obtain an
     affiliated PAPs) provide in-kind                        benefit, OIG will take into consideration             opinion, the requesting party must
     donations in the form of free drugs to                  in exercising its enforcement discretion              submit a detailed, written description of
     pharmacies, health centers, clinics, and                with respect to administrative sanctions              its existing or proposed business
     other entities that dispense drugs to                   arising under the anti-kickback statute               arrangement. The length of time that it
     qualifying uninsured patients, are                      whether the PAP is taking prompt,                     takes for OIG to issue an opinion varies
     different from traditional PAPs that                    reasonable, verifiable, and meaningful                based upon a number of factors,
     provide assistance directly to patients.                steps to transition patients who enroll in            including the complexity of the
     These programs potentially implicate                    Part D to alternative assistance models,              arrangement, the completeness of the
     the Federal anti-kickback statute if the                such as independent charities.                        submission, and how promptly the
     free drugs are given to a recipient that                   In addition to taking steps to                     requestor responds to requests for
     is in a position to generate Federal                    transition beneficiaries to other                     additional information. Further
     health care program business for the                    programs, pharmaceutical manufacturer                 information about the process,
     donor manufacturer. Whether a                           PAPs can reduce their fraud and abuse                 including frequently asked questions,
     particular bulk replacement program                     exposure by taking one or more of the                 can be found on the OIG Web page at
     complies with the fraud and abuse laws                  following steps: (i) Adjusting financial              http://oig.hhs.gov/fraud/
     would require a case-by-case analysis.                  need criteria to reflect the lower drug               advisoryopinions.html.
     In undertaking any analysis, we would                   costs incurred by Part D enrollees (i.e.,                The Office of Inspector General (OIG) was
     consider, among other factors, how the                  liability for premiums and cost-sharing               established at the Department of Health and
     program is structured and whether there                 amounts only, instead of the total cost               Human Services by Congress in 1976 to
     are safeguards in place: (i) To protect                 of the drugs); (ii) where possible,                   identify and eliminate fraud, abuse, and
                                                             subsidizing other drugs in the same                   waste in the Department’s programs and to
     Federal health care program                                                                                   promote efficiency and economy in
     beneficiaries from being steered to                     class as the manufacturer’s products
                                                                                                                   departmental operations. OIG carries out this
     particular drugs based on the financial                 covered by the PAP if a beneficiary’s
                                                                                                                   mission through a nationwide program of
     interests of their health care providers                physician prescribes an alternate                     audits, investigations, and inspections. The
     or suppliers; (ii) to protect the Federal               product; and (iii) checking CMS                       Health Care Fraud and Abuse Control
     health care programs from increased                     eligibility files, to the extent available,           Program, established by the Health Insurance
     program costs; and (iii) to ensure that                 on a reasonably regular basis to                      Portability and Accountability Act of 1996
     bulk replacement drugs are not                          determine whether PAP patients have                   (HIPAA), authorized OIG to provide guidance
     improperly charged to Federal health                    enrolled in Part D and should be                      to the health care industry to prevent fraud
                                                             transitioned to other assistance                      and abuse and to promote the highest level
     care programs. Additionally, bulk                                                                             of ethical and lawful conduct. To further
     replacement as a means of subsidizing                   programs. Occasional, inadvertent cost-
                                                             sharing subsidies provided to a Part D                these goals, OIG issues Special Advisory
     only the Medicare Part D cost-sharing                                                                         Bulletins about industry practices or
     amount potentially raises substantial                   enrollee should not be problematic (e.g.,
                                                                                                                   arrangements that potentially implicate the
     risks related to accounting for the                     where, despite due diligence, a                       fraud and abuse authorities subject to
     amount of replacement drug that would                   pharmaceutical manufacturer PAP does                  enforcement by OIG.
     be equivalent to the cost-sharing amount                not know and should not have known
                                                             that a beneficiary has enrolled in                    Daniel R. Levinson,
     owed by the beneficiary; properly
                                                             Medicare Part D). Notwithstanding a                   Inspector General.
     attributing that amount to specific
     beneficiaries; and properly calculating                 pharmaceutical manufacturer’s                         [FR Doc. 05–23038 Filed 11–21–05; 8:45 am]
     TrOOP.                                                  compliance with the foregoing, the                    BILLING CODE 4150–04–P
                                                             Government will take enforcement
     V. Transitioning From Existing                          action in cases where there is evidence
     Pharmaceutical Manufacturer PAPs                        of unlawful intent.                                   DEPARTMENT OF HOMELAND
                                                                The potential variability of PAPs, the             SECURITY
        OIG is mindful of the importance of                  fact that the Part D program is not yet
     a smooth, effective transition for                      operational, and the fact that it is not              [DHS–2005–0054]
     beneficiaries who are currently                         possible to predict all future or potential
     participating in pharmaceutical                         fraud and abuse schemes with certainty,               Office of State and Local Government
     manufacturer PAPs and elect to enroll                   make it difficult to provide                          Coordination and Preparedness;
     in Medicare Part D. While most such                     comprehensive general guidance on the                 SAFER Grant Program
     enrollees are likely to qualify for the                 application of the anti-kickback statute              AGENCY: Office of State and Local
     low-income subsidies available under                    to PAPs for Part D enrollees at this time.            Government Coordination and
     Part D, we are concerned that there may                 We intend to monitor the situation                    Preparedness, DHS.
     not be sufficient independent charity                   closely and may issue further guidance,               ACTION: Notice and request for comment.
     PAPs available before the January 1,                    if needed. Nothing in this Bulletin
     2006 start date of the Part D program to                should be construed as precluding any                 SUMMARY: Pursuant to the Paperwork
     accommodate beneficiaries of limited                    form of lawful assistance not described               Reduction Act, the Department of
     means who may need an alternative                       in this Bulletin.                                     Homeland Security (DHS) solicited
     PAP arrangement. We recognize the                                                                             comments on the proposed collection of
     importance of not unnecessarily                         VI. OIG Advisory Opinion Process                      information in connection with the
     burdening or alarming beneficiaries. We                   OIG has an advisory opinion process                 Staffing for Adequate Fire and
     believe that manufacturers will play an                 that is available to individuals and                  Emergency (SAFER) Grant Application.
     important role in ensuring an effective                 entities, including pharmaceutical
     transition.                                             manufacturers, that want assurance that                 22 Section   1128D(b) of the Act; 42 CFR part 1008.



VerDate Aug<31>2005   17:22 Nov 21, 2005   Jkt 208001   PO 00000   Frm 00051   Fmt 4703   Sfmt 4703   E:\FR\FM\22NON1.SGM   22NON1
